Audit of Follow-up Review of Recommendation No. 1
from Audit Report No. 4-674-02-002-P, Audit of
USAID/South Africa’s Information Systems General
Computer Controls
Audit Report No. 4-674-04-003-P
January 12, 2004




            PRETORIA, SOUTH AFRICA
January 12, 2004


MEMORANDUM
FOR:           USAID/South Africa Director, Dirk Dijkerman

FROM:          Regional Inspector General/Pretoria, Jay Rollins /s/

SUBJECT:       Audit of Follow-up Review of Recommendation No. 1 from Audit Report
               No. 4-674-02-002-P, Audit of USAID/South Africa’s Information
               Systems General Computer Controls (Report No. 4-674-04-003-P)

This memorandum is our report on the subject audit. In finalizing this report, we
considered management comments on the draft report and have included those
comments, in their entirety, as Appendix II in this report.

This report has two recommendations. In response to the draft report, USAID/South
Africa concurred with and included corrective action plans and target completion dates
for both recommendations. Therefore, we consider that management decisions have been
reached on both recommendations. Please provide the Bureau for Management, Office of
Management Planning and Innovation with evidence of final actions in order to close the
recommendations.

I appreciate the cooperation and courtesy extended to my staff throughout the audit.
[This page intentionally left blank.]
           Summary of Results............................................................................................. 5
Table of
Contents   Background .......................................................................................................... 5

           Audit Objective.................................................................................................... 6

           Audit Findings ..................................................................................................... 7

                      Has USAID/South Africa taken corrective final actions on
                      Recommendation No. 1 of Audit Report No. 4-674-02-002-P,
                      Audit of USAID/South Africa’s Information Systems General
                      Computer Controls? ................................................................................ 7

                              Mission Contingency Plan Needs
                              To Be Completed and Tested.......................................................... 8

                              Mission Needs to Correct and Complete
                              Its Security Review Questionnaire.................................................. 9

           Management Comments and Our Evaluation .................................................... 11

           Appendix I-Scope and Methodology ................................................................. 13

           Appendix II-Management Comments................................................................ 15




                                                                                                                                     3
[This page intentionally left blank.]




                                        4
Summary of   The Regional Inspector General, Pretoria conducted this audit to determine whether
Results      USAID/South Africa took corrective final actions on Recommendation No. 1 of the
             Office of Inspector General’s Audit Report No. 4-674-02-002-P. Recommendation
             No. 1 included five components for implementing a computer security program at
             USAID/South Africa (see page 6).

             This audit found that USAID/South Africa had taken corrective final actions on three
             of the five components addressed in Recommendation No. 1. Improvements were
             made in (1) conducting risk assessments, (2) developing and maintaining an
             information systems security plan, and (3) implementing effective access controls.
             However, the Mission’s actions did not sufficiently address two components in
             Recommendation No. 1. The Mission had not adequately prepared and tested an
             information systems contingency plan nor properly evaluated and monitored the
             effectiveness of its security program (see pages 7-10).

             This report contains two recommendations to help USAID/South Africa improve
             its computer security program in the two areas mentioned above (see pages 9 and
             10).

             In response to the draft report, USAID/South Africa concurred with both
             recommendations contained in the report. The Mission included corrective action
             plans and target completion dates for both recommendations. Therefore, we
             consider that management decisions have been reached on both recommendations
             upon final report issuance (see page 11).


Background   General computer controls are the structure, policies, and procedures that apply to
             all or a large segment of an entity’s information systems and that help ensure their
             proper operation. The primary objectives of general controls are to safeguard data,
             protect computer application programs and system software from unauthorized
             access, and ensure continued computer operations in case of unexpected
             interruptions. USAID places extensive reliance on information systems to process
             data. Therefore, it is critical for USAID to maintain adequate internal controls over
             its financial and management systems. At USAID/South Africa, the Data
             Management Division (DMD) is responsible for managing, operating and
             maintaining the Mission’s information systems. DMD is responsible for:

                •   Establishing information system computer processing requirements.

                •   Processing requests for user access to the system.

                •   Providing related computer services.

                •   Monitoring and maintaining the system in compliance with USAID policies
                    and procedures.


                                                                                                5
            On January 15, 2002, the Office of Inspector General (OIG) issued Audit Report No.
            4-674-02-002-P. The report addressed OIG concerns regarding USAID/South
            Africa’s ineffective general controls over the computer processing environment.
            This situation occurred because USAID/South Africa had not implemented a
            security program that fully met the requirements of the Computer Security Act of
            1987, Office of Management and Budget’s Circular A-130, or USAID Automated
            Directives System 545. Therefore, the OIG recommended that USAID/South Africa
            implement a computer security program that included:

                1. Conducting risk assessments.

                2. Developing and maintaining an information systems security plan.

                3. Implementing effective access controls.

                4. Preparing and testing an information systems contingency plan.

                5. Evaluating and monitoring the effectiveness of its security program.

            Henceforth, for clarity, this audit report will refer to each of the components
            addressed in Recommendation No. 1 by the numbering scheme provided above.

            On March 26, 2003, USAID/South Africa submitted a memorandum to USAID’s
            Office of Management Planning and Innovation (MPI) that requested that MPI close
            the recommendation made in Audit Report No. 4-674-02-002-P. The memorandum
            documented actions taken by the Mission and provided information on the
            implementation of the audit recommendation. Based on the Mission’s submission,
            MPI closed the recommendation on March 28, 2003. The audit in this report covers
            the period from January 2002 through October 2003.


Audit       This recommendation follow-up audit was conducted in accordance with the U.S.
Objective   Office of Management and Budget’s Circular No. A-50 and Office of Inspector
            General (OIG) audit policy, which requires the OIG to follow-up on
            recommendations that have been closed. Specifically, the audit was conducted to
            answer the following question:

            •       Has USAID/South Africa taken corrective final actions on
                    Recommendation No. 1 of Audit Report No. 4-674-02-002-P, Audit of
                    USAID/South Africa’s Information Systems General Computer Controls?

            Appendix I contains a discussion of the audit's scope and methodology.




                                                                                            6
Audit Findings    Has USAID/South Africa taken corrective final actions on Recommendation
                  No. 1 of Audit Report No. 4-674-02-002-P, Audit of USAID/South Africa’s
                 Information Systems General Computer Controls?

                 USAID/South Africa has taken corrective final actions on three of the five
                 components addressed in Recommendation No. 1. However, the Mission still
                 needs to take further corrective actions on two important components addressed in
                 Recommendation No. 1. These two components relate to developing and testing a
                 contingency plan and to providing a security review.

                 In response to Recommendation No. 1, the Mission has taken corrective final
                 actions to enhance three components of its general computer controls. These
                 components were related to: conducting risk assessments (component #1),
                 developing and maintaining an information systems security plan (component #2),
                 and implementing effective access controls (component #3). The Mission addressed
                 component #1 by conducting a risk assessment of potential threats and identifying
                 associated countermeasures to mitigate those threats. Component #2 was addressed
                 when the Mission’s security plan was approved by Mission management on March
                 7, 2003, and updated on September 26, 2003. The Mission also implemented
                 effective access controls by having a restricted access-controlled computer server
                 room and by requiring signatures from the Mission’s management prior to granting
                 an individual computer system access.1 Additional access controls included
                 requirements that computer system users need a security clearance and that
                 individuals sign a computer system “rules of individual behavior.”2

                 In spite of improvements made, the Mission still needs to take additional
                 corrective actions to further strengthen the Mission’s general computer controls.
                 Mission actions did not adequately support preparing and testing an information
                 systems contingency plan (component #4) or evaluating and monitoring the
                 effectiveness of its security program (component #5). Instead of reopening the
                 January 2002 recommendation verbatim, we are rewording a portion of the
                 original recommendation and reissuing it as two new recommendations. These
                 new recommendations will only focus on corrective actions for components #4
                 and #5, while taking into account the actions that the Mission had already
                 implemented for components #1 through #3.




                 1
                  USAID Computer System Access & Termination Request, AID 545-4 (06/2001).
                 2
                  USAID Unclassified Information Systems Access Request Acknowledgement, AID 545-1
                 (06/2001).


                                                                                                     7
Mission Contingency Plan Needs
To Be Completed and Tested

A complete and tested contingency plan is required by both the U.S. Office of
Management and Budget (OMB) under Circular A-130 and by USAID’s
Automative Directives System (ADS) 545. USAID/South Africa did not have a
completed and tested contingency plan. The contingency plan had not been
completed because the Mission’s staff was involved with other responsibilities
that were deemed of higher priority than completing the draft contingency plan.
Because the plan was still in draft form, it had not been tested. Until the Mission
has a complete and tested contingency plan, the Mission’s ability to process,
retrieve, and protect information necessary to accomplish its mission in the event
of an emergency remains at risk.

Both OMB and USAID have requirements that address the need for developing
and testing a contingency plan. OMB’s Circular A-130, Appendix III, requires
agencies to establish and periodically test systems’ capabilities to continue
providing service based upon the needs and priorities of system participants.
According to ADS 545, the System Manager and designated Information Systems
Security Officer (ISSO) must: (1) review, update (if necessary), and test all
emergency action plans annually or when significant modifications are made to
system hardware, software, or system personnel, and (2) retain copies of the most
recent contingency operation, disaster recovery and emergency action plans in the
central system file and at the off-site back-up facility. The Directive further states
that each member of the system staff and the designated ISSO must receive
training in the implementation of emergency procedures and be afforded
opportunities to periodically practice the procedures.

Recommendation No. 1, component #4, recommended that USAID/South Africa
implement a computer security program that included preparing and testing an
information systems contingency plan. When the recommendation was made, the
contingency plan was not complete—it lacked several important items. These items
included selecting an alternate off-site computing location for emergency
situations and selecting members for contingency teams, who would be
responsible for responding to emergency situations. At that time, the Mission
stated that because it was in the process of transitioning from one operating system
to another, it planned to complete and test the contingency plan once the new
operating system was installed. However, two years after installing the new
operating system, the contingency plan has still not been tested.

The draft contingency plan had not been completed because it had been a lower
priority activity for the Mission. Among the higher priorities that faced the staff
responsible for the contingency plan was their work related to the Mission’s move
into its new building in October 2002. Because the contingency plan was not
complete, it had not been tested. Until a contingency plan is completed and tested,




                                                                                    8
the Mission will continue to be exposed to the same vulnerabilities identified in
Audit Report No. 4-674-02-002-P. That audit report stated the following:

       A contingency plan that clearly provides information on supporting
       resources that will be needed in emergency situations, roles and
       responsibilities of those who will be involved in recovery activities,
       and procedures for restoring critical applications and their order in
       the restoration process would help ensure the Mission’s ability to
       operate if services are interrupted. Without a prepared and tested
       contingency plan, the Mission may not be able to process, retrieve
       and protect information maintained electronically or accomplish its
       mission in emergency situations.

In conclusion, USAID/South Africa management will need to designate the
completion and testing of an information systems contingency plan as a high priority
in order to accomplish its mission in emergency situations. Without a complete and
tested contingency plan, USAID/South Africa cannot expect its staff to be able to
respond positively and efficiently to mitigating emergency situations that may
negatively impact the Mission’s information systems.

       Recommendation No. 1: We recommend that USAID/South
       Africa complete and test its information systems contingency
       plan.

Mission Needs to Correct and Complete
Its Security Review Questionnaire

OMB’s Circular A-130, Appendix III, and USAID’s ADS 545 require reviews to
assess security controls. ADS 545 specifies the Mission official responsible, in
conjunction with other staff members, for performing an annual self-evaluation
review of the information systems security program. USAID/South Africa
performed a security evaluation of the Mission’s information systems, but this effort
had inherent problems. In April 2003, the Mission conducted a compliance review
of its information systems that contained numerous inaccuracies and non-
responses. This occurred because the former Mission staff member who
performed the assessment did not use the assistance of Mission’s technical staff.
The lack of an accurate and complete computer security review has resulted in the
Mission having a diagnostic tool that it cannot rely upon to identify and mitigate
computer security risks.

OMB’s Circular A-130, Appendix III, states that agencies should review the
security controls in each system when significant modifications are made to the
system, or at least every three years. USAID’s ADS 545 goes further by making
the Information Systems Security Officer (ISSO) responsible for conducting
annual self-evaluation reviews of the information systems security program
managed by the ISSO. The Unclassified Information System Compliance Review



                                                                                   9
questionnaire (AID 545-3 [6/2001]) states that the ISSO “in conjunction with the
Program Manager, System Manager/IT Specialist and other appropriate security
personnel, must use this questionnaire.” The questionnaire must be used for
“conducting an annual review of the security posture of each system operating in
support of their mission or program.” Further, AID 545-3 states that the
questionnaire was developed for use as a guideline, and that the ISSO must use
the questionnaire for “assessing compliance with Federal and USAID information
systems security policies, procedures and regulations governing electronic data
processing and storage.” All noted deficiencies in the review are required to be
addressed in a corrective action plan.

Recommendation No. 1, component #5, recommended that USAID/South Africa
implement a computer security program that included evaluating and monitoring the
effectiveness of its security program. In response to this recommendation, on April
23, 2003, a Mission official performed a security review using the AID 545-3
questionnaire. However, of the questionnaire’s 43 questions, 7 had incorrect
answers and 13 were not answered. An example of one of the questions incorrectly
answered was “Have the contingency operation plans been successfully practiced or
implemented within the last year?” The incorrect response was “yes”. An example
of one of the questions not answered was “Are up-to-date contingency operation
plans in place?”

The problems with the April 2003 security review were attributed to a lack of
knowledge by the former ISSO who completed the review. According to Mission
staff, the former ISSO official who completed the questionnaire did so without the
assistance of the Mission’s technical staff. In addition, the unanswered questions
may have reflected unfamiliarity with the Mission’s information system.

The lack of an accurate and complete computer security review has resulted in the
Mission having a diagnostic tool that it cannot rely upon to identify and mitigate
computer security risks. In conclusion, based on the significant problems identified
with the current security review, we believe it would be prudent for the Mission to
correct and complete its 2003 security review. Therefore, we are making the
following recommendation.

       Recommendation No. 2: We recommend that USAID/South Africa
       correct and complete its April 2003 security review questionnaire to
       better evaluate and monitor the effectiveness of its security program.




                                                                                 10
Management   In response to our draft report, USAID/South Africa management concurred with
Comments     Recommendation Nos. 1 and 2. The Mission also provided corrective action
             plans and target completion dates for both recommendations. Therefore, we
and Our
             consider that management decisions have been reached for both recommendations
Evaluation   upon final report issuance.




                                                                                       11
[This page intentionally left blank.]




                                        12
                                                                                      Appendix I

Scope and     Scope
Methodology
              The Regional Inspector General/Pretoria conducted this audit in accordance with
              generally accepted government auditing standards. The audit, covering the period
              from January 2002 through October 2003, reviewed the corrective final actions
              taken by the Mission on Recommendation No. 1 from our January 2002 audit
              report on USAID/South Africa’s general computer controls. In planning and
              performing the audit, we tested and assessed significant management controls
              related to the Mission’s information systems. In this effort, we tested the process
              used by the Mission to ensure that its employees and visitors obtain the
              appropriate authorization in order to access to the Mission’s information systems.
              Further, we also assessed the management controls used to protect the Mission’s
              information systems from unauthorized users and prohibited uses. The types of
              evidence examined during the audit included—but were not limited to—the
              Mission’s Security Plan and draft Contingency Plan, relevant documents
              concerning the Mission’s efforts to improve computer controls, and testimony
              from USAID/South Africa staff. The audit was conducted at USAID/South Africa
              in Pretoria, South Africa, from September 25 to October 21, 2003.

              Methodology

              The purpose of this audit was to review the Mission’s corrective final actions on
              Recommendation No. 1. Specifically, the audit was designed to answer the
              question, “Has USAID/South Africa taken corrective final actions on
              Recommendation No. 1 of Audit Report No. 4-674-02-002-P, Audit of
              USAID/South Africa’s Information Systems General Computer Controls?” To
              answer the audit’s objective, we reviewed Mission documents and interviewed
              Mission officials.   Some of these documents included the Mission’s (1)
              memorandum recommending the closure of Recommendation No. 1 to USAID’s
              Office of Management Planning and Innovation, (2) April 2003 security review, (3)
              draft contingency plan, (4) security plan, (5) completed computer system access
              forms, and (6) computer security training list of participants.

              We also relied upon Audit Report No. 4-674-02-002-P (issued by RIG/Pretoria on
              January 15, 2002), on which this review was based, in order to (1) identify and
              review the criteria that had been used and (2) gain an understanding of the reported
              findings. We reviewed each of the five components that comprise Recommendation
              No. 1 and the associated critical findings identified in the prior audit report. For
              each finding, we determined if the problem areas had been addressed. These
              determinations were based on professional judgment and served as the basis for
              deciding whether to concur that reported final actions effectively addressed
              components in Recommendation No. 1. In the two instances where the Mission’s
              actions did not effectively address the specific components in Recommendation No.
              1, we decided to reopen those particular components.



                                                                                               13
The nature of this audit did not lend itself to materiality thresholds; thus none were
developed.




                                                                                   14
                                                                                           Appendix II


Management
                                                                                          January 2, 2004
Comments
             MEMORANDUM

             TO:         Jay Rollins, RIG/Pretoria

             FROM:       Dirk Dijkerman, Mission Director /s/

             SUBJECT: Management Comments to Follow-up Audit to Audit Report No. 4-674-02-002-P

             Executive Office/Data Management Division staff reviewed the recommendations of the subject
             audit report and I concur with their proposed management comments reproduced below:

             Recommendation No. 1: We recommend that USAID/South Africa complete and
             test its information systems contingency plan.

             USAID/South Africa intends to complete its information systems contingency plan in January
             2004 and test the plan no later than February 29, 2004.

             Recommendation No. 2: We recommend that USAID/South Africa correct and complete
             its April 2003 security review questionnaire to better evaluate and monitor the effectiveness
             of its security program.

             USAID/South Africa intends to have a qualified official re-administer the Unclassified
             Information System Compliance Review questionnaire prescribed by ADS 545-3 no later than
             March 31, 2004 and annually thereafter (or more frequently should significant system
             modifications be carried out).


             cc:     ESchaeffer, RFMO
                     LNortje, EXO/DMD


             Cleared:        BSchaeffer, EXO /s/

                             KFickenscher, A/DD /s/




                                                                                                       15
